No.

Supreme Court, U.S.
FILED

)A 1 313

JUN 112019

In the
Supreme Court of the United States

OFFICE OF THE CLERK

Steven T. Waitner and Sarah V. Waltner,
Petitioners,
V.

United States,
Respondent.
On Application for Extension of Time to File Petition for A Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit

PETITIONERS' APPLICATION FOR EXTENSION OF TIME TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and as Circuit Justice for the United States Court of Appeals for the
Ninth Circuit:
Petitioners respectfully request that the time for filing a petition for a writ of
certiorari in this matter be extended for 60 days to and including August 26, 2019.
The Judgment for review was entered on January 17, 2019 by a panel of the Court
of Appeals for the Ninth Circuit (see App. A, infra). A petition for rehearing was

M

filed on March 4, 2019 and was denied on March 28, 2019 (see App. B, infra).

JUN IL, 2019
OURT U.S.

Therefore, absent an extension, the Petition for a Writ of Certiorari would be due on
June 26, 2019. This application is presented at least ten days before that date. The
parties for whom the undersigned seeks an extension are the Petitioners Steven T.
Waltner and Sarah V. Waltner, along with her counsel in the case below, Donald W.
Wallis, Esq. The Court has jurisdiction over the Judgment under 28 U.S.C.
§1254(1).

i:itw oi
This case concerns a demonstrably processible tax return that the IRS had
examined, calculated the tax, and processed a reduced overpayment. In a later
refund action, the U.S. Court of Federal Claims declared that he return was not
valid as a claim for refund under the specificity requirements of two Treasury
regulations, and dismissed the refund action for lack of subject matter jurisdiction.
Subsequently, the IRS issued a notice of deficiency several months after the statute
of limitations on assessment had expired. The Waltners challenged the proposed
deficiency in the U.S. Tax Court, asserting that the notice of deficiency was invalid,
that there was no deficiency as a matter of law, and that the Tax Court lacked the
power to do anything but render judgment in favor of petitioners and dismiss.
In the deficiency case, the government stipulated that the Waltners had
timely filed their 2008 return and confirmed that the IRS had processed the return,
but argued contrary to its Stipulations of Fact that the return nevertheless was not
valid, and that the Waltners were precluded from defending the return as a valid
return for purposes of triggering the statute of limitations because the Claims Court
had called it an invalid claim for refund. The government did not introduce into

evidence a single page of the record of the prior case to prove that the issues were
identical in both cases under the same burdens of proof and legal standards. The
government argued that, since the return was earlier determined to be insufficient
as a claim for refund, the exception to the statute of limitations for when a return is
not filed at all (IRC §6501(c)(3)) allowed the IRS to assess a deficiency of tax on this
return at any time. The Tax Court accepted the government's position that it took
in contravention of its own Stipulations of Fact and its own treatment of the return,
took judicial notice of the fact that there was a final judgment in the Claims Court
refund action, and, without any evidence supporting issue preclusion, ruled that the
Waltners were barred from arguing that their return was valid to start the
limitations period. In this way, the Tax Court treated the already-processed return
as a nullity for purposes of the exception to the statute of limitations, IRC
§ 6501(c)(3) (which does not mention or define the word "valid" in its context), and
found that the Waltners were therefore liable for a failure to file penalty. It also
imposed sanctions under § 6673 without allowing the Waltners to read, let alone to
brief in opposition, the government's sanctions motion. And the court sua sponte
imposed sanctions against the Waltners' counsel without a showing of bad faith,
multiplication of proceedings or excess costs.
On appeal, without any record evidence of the prior case, the Court of
Appeals for the Ninth Circuit affirmed that collateral estoppel precluded the
Waltners from defending against the government's argument that the timely-filed
and already-processed return was nevertheless invalid to start the limitations
period. The Court of Appeals found the notice of deficiency to be timely and

summarily affirmed the deficiency, the failure to file penalty, and the sanctions
under IRC §6673 against the Waltners. Disregarding Mr. Wallis's Status Report in
which he indicated his intention to appeal the sna sponte sanctions against him, the
Court of Appeals dismissed that portion of the appeal for lack of jurisdiction.
Petitioners intend to seek a writ of certiorari. The Ninth Circuit's affirmance
of the application of collateral estoppel without any part of the record of the prior
case in evidence directly contradicts its own decisions in Guam Investment
Company v. Central Building, Inc., 288 F.2d 19, 23 (CA9 1961), U.S. v. Lasky, 600
F.2d 765, 769 (CA9 1979), Hernandez

ii. City

of Los Angeles, 624 F.2d 935, 937 (CA9

1980); and Clark v. Bear Stearns & Co., Inc., 966 F.2d 1318, 1321 (CA9 1992). The
decision also conflicts with decisions of the Second, Third, Sixth and Eighth Circuit
Courts of Appeals, and flies in the face of the principle that this Court articulated in
Allen v. McCurry, 449 U.S. 90,94-95 (1980):
one general limitation the Court has repeatedly recognized is that the
concept of collateral estoppel cannot apply when the party against whom the
earlier decision is asserted did not have a "full and fair opportunity" to
litigate that issue in the earlier case.
The Court of Appeals could not have considered whether the issue sought to be
precluded was fully and fairly litigated, or whether the burdens of proof and legal
standards were the same in the prior case and the case below. It decided the case by
applying the doctrine without requiring the government to meet its burden to prove
with evidence any element of its defense.
The Waltners' petition will present the question of whether a timely-filed tax
return that was examined and processed by the IRS and relied upon to issue a
13

deficiency notice can later, and without evidence, be declared by a court to be a
nullity for purposes of the assessment statute of limitations by a court decree of
issue preclusion based on a subjective and revisionist interpretation of IRC
§ 6501(c)(3).
The Ninth Circuit's interpretation of this exception to the statute of
limitations conflicts with this Court's decisions in in Zellerbach Paper Co. v.
Helvering, 293 U.S. 172 (1934), Chase Securities Corp. v. Donaldson, 325 U.S. 304,
314 (1945), and Badaracco

ii. Commissioner,

464 U.S. 386, 396-397 (1984), but, to

the Waltners' knowledge, this Court has not yet passed on the precise question
presented in the Waltners' Petition.
The Petition also will present the question of whether an informal notice of
intent to appeal that Mr. Wallis filed in his Status Report is adequate to preserve
the right of a party's counsel to appeal a sua sponte sanctions order against him
that appears in the Judgment. Essentially holding that it was not, the Ninth
Circuit split from a contrary decision of the Fifth Circuit in Cobb v. Lewis, 488 F.2d
41 (5th Cir.1974) ("the notice of appeal requirement may be satisfied by any
statement, made either to the district court or to the Court of Appeals, that clearly
evinces the party's intent to appeal"). The Waltners wish to seek remand to the
Court of Appeals to hear and decide this important issue.
REASDN&KQ&GRMq]JNGAKEXTENSJOILOrTIME
Petitioners understand that applications for extension of time to file petitions
for certiorari are not favored, but believe that a 60-day extension is justified on the
following grounds:

Petitioners have not yet been able to retain their former counsel, Mr.
Donald Wallis, to represent them in their appeal to this Court. Mr. Wallis
represented the Waltners in their appeal to the Ninth Circuit. In late March, when
the petition for rehearing was denied, and in early April, Sarah Waltner and Donald
Wallis made several attempts to confer but were unable to connect, due either to his
work schedule or to her own. In the first two weeks of April, they were unable to
confer due to Mr. Wallis's illness (flu exacerbated by his heart condition and
debilitating fatigue). As of May 6, 2019, Mr. Wallis was recovering but expressed
overwhelming professional and personal commitments and stated that he was not
yet in a position to determine if he could work on or file the Petition for Certiorari
on the Waltners' behalf pro bono, as the Waltners requested. Mr. Wallis is
currently out of the country until June 14, 2019. Sarah Waltner and Mr. Wallis are
currently scheduled to confer on June 15, 2019.
Around Easter, Petitioners' own work on the Petition was interrupted
by family crisis involving the Waltners' son. Petitioner Sarah Waltner had to move
him from his father's home in Eugene, Oregon to her home in Phoenix, Arizona on
very short notice and with borrowed money.
Petitioners are suffering increasing financial hardship and will need
more time to raise or to borrow the funds needed to prepare and file the Petition, or
to obtain an agreement with their counsel that will reduce their financial burden.
Although Sarah Waltner has been working diligently with the thought
that petitioners might have to file the Petition pro se, she has had difficulty
completing the work alone without the assistance of counsel.
M

5.

Further, there is one matter that petitioners cannot handle on their

own in any event. The Court of Appeals held that Petitioners have no standing to
appeal Mr. Wallis's sanctions issue on their counsel's behalf, even though they
noticed their appeal of the Judgment that included that sanction. Therefore,
without assurance of the continued representation of their former counsel,
petitioners may have to abandon the issue and delete it from the Petition. An
extension of time will help petitioners to determine whether Mr. Wallis will press
the attorney sanction issue on his own behalf, and, if he does not, how to proceed in
the preparation and completion of the Petition.
Without the extension of time, petitioners will have to write, format,
and file the Petition pro se and possibly in forma pauperis, or be forced to give up
the appeal.
An extension will not prejudice Respondent. The Mandate from the
Court of Appeals has issued (see App. C, infra).
Under Rule 13.5 of the Rules of the United States Supreme Court, for
good cause, a Justice may extend the time to file a petition for a writ of certiorari for
a period not exceeding 60 days. Petitioners belief that good cause exists.
WHEREFORE, petitioners pray that this Court will find good cause to grant
them and Mr. Wallis an extension of no more than 60 days, to and including
August 26, 2019, to file the Petition for a Writ of Certiorari in this case.

7

Respectfully submitted this 11'
day of June, 2019.

Steven T. Waitner, Petitioner
101 E. 48'Avenue
Eugene, OR 97405
(541) 525-0622
steve.waltner@gmail.com

Sarah V. Waitner, Petitioner
P.O. Box 1791
Scottsdale, AZ 85252
(623) 252-6492
sevanhoey@gmail.com

FAI U U DO 1~, I

Case: 17-72261, 01/17/2019, ID: 11156890, DktErttry: 50-1, Page 1 of 4

FILED

NOT FOR PUBLICATION

JAN 172019

UNITED STATES COURT OF APPEALS
FOR THE

NINTH CIRCUIT

STEVEN T. WALTNER and SARAH V
WALTNER,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 17-72261
Tax Ct. No. 1729-13

Petitioners-Appellants,
MEMORANDUM*

V.

COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.

Appeal from a Decision of the
United States Tax Court
Submitted January 8, 2019"
Pasadena, California
Before: GRABER and WATFORD, Circuit Judges, and ZOUHARY,tm District
Judge.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes that this case is suitable for decision
without oral argument. Fed. R. App. P. 34(a)(2).
The Honorable Jack Zouhary, United States District Judge for the Northern
District of Ohio, sitting by designation.

-I

--

Case: 17-72261, 01/17/2019, ID: 11156890, DktEntry: 50-1, Page 2 of 4

Appellants Steven and Sarah Waitner appeal an order from the United States
Tax Court sustaining a tax deficiency and imposing sanctions against them and their
attorney, Donald Wallis. We affirm in part and dismiss in part.
I. The Waltners first challenge the $8,801 tax deficiency and $978.75 penalty
for failure to file a valid tax return. They claim that the three-year statute of
limitations under .26 U.S.C. § 6501(a) for assessing their 2008 tax liability expired
by the time the IRS sent them a deficiency notice in 2012. The Tax Court determined
that the statute of limitations had not begun to run because the Waltners never filed
a valid tax return for 2008. We review de novo whether the assessment was timebarred. Wolf v. Comm'r, 4 F.3d 709, 713 (9th Cir. 1993).
For § 6501 (a)'s limitations period to begin running, the filed tax return must
be valid. See Beard v. Comm 'r, 82 T.C. 766, 777 (1984), aff'd, 793 F.2d 139 (6th
Cir. 1986) (per curiam). The Waltners already litigated the validity of their 2008 tax
return in a separate action in the Court of Federal Claims. That court held that the
2008 tax return was not valid because it did not provide the IRS with sufficient
information to calculate the Waltners' tax liability. Waltnerv. United States, 98 Fed.
Cl. 737, 761 (2011), aff'd, 679 F.3d 1329 (Fed. Cir. 2012). Because the validity of
the purported 2008 tax return was both fully litigated and necessary to that court's
decision, the Tax Court correctly held that collateral estoppel prevents the Waltners
from relitigating the validity of their return.
2

1

Case: 17-72261, 01/17/2019, ID: 11156890, DktEntry: 50-1, Page 3 of 4

The Waltners argue that the Commissioner validated their 2008 tax return by
processing it and mailing a CP 16 notice to them in September 2009. But that notice
merely informed the Waltners that they would not be paid the refund they claimed
on their tax return. Under Beard, 82 T.C. at 777, nothing about that notice converted
the Waltners' 2008 tax return into a valid tax return. Because the Waltners' 2008
tax return was invalid, the statute of limitations never started to run and the
Commissioner's 2012 notice of deficiency was timely.
Under 26 U.S.C. § 665 1(a)(1), a taxpayer who fails to file a valid tax return is
subject to penalty, unless the failure to file is due to reasonable cause and not due to
willful neglect. The Tax Court held that the Waltners' failure to file a valid return
was due to willful neglect. The record supports that finding, so we affirm the $8,801
income tax liability and the $978.75 failure-to-file penalty.
2. The Tax Court did not abuse its discretion in sanctioning the Waltners for
maintaining frivolous arguments. Under 26 U.S.C. § 6673(a)(1)(B), a taxpayer may
be sanctioned up to $25,000 if it appears to the Tax Court that "the taxpayer's
position

.

.

-

is frivolous or groundless." The Waltners have litigated their zero-

wages theory numerous times in federal court and have received repeated warnings
that this zero-wages position is frivolous. In one previous case, the Tax Court
explained to the Waltners that their zero-wages arguments were frivolous and
imposed a $2,500 sanction. We affirmed that sanction two years ago. Waitner v.
'1

1

1

Case: 17-72261, 01/17/2019, ID: 11156890, DktEntry: 50-1, Page 4 of 4

Comm 'r, 659 F. App'x 440, 441 (9th Cir. 2016) (unpublished). Despite those
warnings and sanctions, the Waltners continue to assert their frivolous position. We
affirm the $10,000 sanction under § 6673(a)(1)(B).
3. We lack jurisdiction to review the $15,500 sanction against Wallis, the
Waltners' attorney.
Appellate review of a Tax Court decision is obtained by filing a notice of
appeal within 90 days after entry of the decision. 26 U.S.C. § 7483. This deadline
is jurisdictional. Bowles v. Russell, 551 U.S. 205, 206-07 (2007). The Waltners'
notice of appeal states that they are appealing the order that imposed the sanction
against their "former counsel." But Wallis did not sign the notice of appeal, did not
appear on the notice, and did not file a notice of his own.
A court's authority extends only to claims based on the litigant's own legal
rights and interests and does not extend to claims based on the legal rights or interests
of third parties. Hollingsworth v. Perry, 570 U.S. 693,707-08 (2013). The Waltners
lack standing to challenge a sanction that did not cause them any legally cognizable
injury. Id. Accordingly, we dismiss the Wallis portion of the appeal for lack of
jurisdiction.
AFFIRMED in part and DISMISSED in part.

APPENDIX B

Case: 17-72261, 03/28/2019, ID: 11244888, DktEntry: 55, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

MAR 282019

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S_ COURT OF APPEALS

STEVEN T. WALTNER; SARAH V
WALTNER,

No. 17-72261
Tax Ct. No. 1729-13

Petitioners-Appellants,
O nnln.i
D
IU PAM

V.

COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
Before: GRABER and WATFORD, Circuit Judges, and ZOUHARY,' District
Judge.
The panel unanimously votes to deny the petition for panel rehearing.
Judges Graber and Watford vote to deny the petition for rehearing en bane, and
Judge Zouhary so recommends. The full court has been advised of the petition for
rehearing en banc, and no judge requested a vote on whether to rehear the mailer
en bane. Fed. R. App. P. 35. The petition for panel rehearing and rehearing en
bane, filed March 4, 2019, is DENIED.

The Honorable Jack Zouhary, United States District Judge for the
Northern District of Ohio, sitting by designation.
*

APPENDIX C)

Case: 17-72261, 04/05/2019, ID: 11254363, DktEntry: 56, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 05 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

STEVEN T. WALTNER and SARAH
V. WALTNER,
Petitioners Appellants,
-

No. 17-72261
Tax Ct.No. 1729-13
United States Tax Court

V.

MANDATE
COMMISSIONER OF INTERNAL
REVENUE,
Respondent Appellee.
-

The judgment of this Court, entered January 17, 2019, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
Costs are taxed against the appellant in the amount of $85.61.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Quy Le
Deputy Clerk
Ninth Circuit Rule 27-7

CERTIFICATE OF SERVICE
I certify that on this date I served the above PETITIONERS' APPLICATION FOR
EXTENSION OF TIME TO FILE A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT by depositing the
document with the United States Postal Service with first-class postage prepaid and by electronic
mail to respondent's counsel of record as follows:
Karen G. Gregory
Attorney, Tax Division
Department of Justice
Post Office Box 502
Washington, D.C. 20044
Appellate.TaxCivil@usdoj.gov
Karen.G.Gregory@ usdoj.gov
Dated: June 11, 2019.

Sarah V. Waltner

